<?7 ^

L

■

ir

LA G

No.

l; V. /\

ORIGINAL
■Supreme Cam i; U:Sr
filed

AUG 2 8 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

DAMOND DEAN
(Your Name)

— PETITIONER

vs.
BOBBY LUMPKIN., DIRECTOR

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

DAMOND DEAN " TDCJ NO. 2058851

(Your Name)
2661 FM 2054

(Address)
TENNESSEE COLONY, TEXAS 75884
(City, State, Zip Code)
NO PHONE
(Phone Number)

QUESTION(S) PRESENTED
Question Number One:
Counsel rendered ineffective assistance by failing to object to
K.H.'s (Complainant) therapist's testimony when she told the jury
"I would say most of the time, if not the majority of the time,
that children come into our center, it is very rare that we see a
child come in that is lying." RR5, 126. Because this^Honorable
Court makes it clear that "determining the weight and credibility
of witness testimony belongs to the jury," should the jurists of
reason consider the lower court's decision substantially debatable,
for holding "Counsel cured any possible harm by eliciting from the
therapist testimony that she does not conduct investigations, and
does not know with certainty whether any victim including K.H. are
telling the truth or a lie?" Cf. United States v. Scheffer, 523
U.S. 303, 118 S.Ct. 1261, 1278 (1998)..
Question Number Two:
Counsel rendered ineffective assistance by failing to investi­
gate and present material witnesses to corroborate the Petitioner's
defensive theory that no sexual assault ever took place. Because
Counsel is obligated to conduct a reasonable investigation in or­
der to present the most persuasive case that he can, should a ju­
rist of reason consider the lower court's decision substantially
debatable for generally holding: "Petitioner fails to show how any
of the present evidence would have altered the outcome of the trial
to demonstrate that counsel provided ineffective assistance?" See
Strickland v. Washington, 466 U.S. 668, 685, 104 S.Ct. 2054 (1984).

ii

LIST OF PARTIES

iXX] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
1 • Damond Dean v. Bobby Lumpkin

No. 20-10211 (5th Cir. April 12,

2021)(Unpublished Opinion)..
2- Damond Dean v. Lorie. Davis, No. 3:18-GV-2623-G (U.S.D.C. Northern District, March 04, 2020)(Unpublished Order adopting Mag­
istrate's Findhpg of Fact and Conclusions of Law).
3. Ex Parte Damond Dean, No. WR-88,076-01 (Tex.Crim.App. June 6,
2018)(Postcard denying state habeas corpus without written
order).
Damond Dean v. State, No. 05-16-00168-CR (Tex.App.--[5th Dist]
Dallas, April 14, 2017)(Unpublished Opinion).
5. State v. Damond Dean, No. F-1575244-J (CDC #3 of Dallas County
Judgment; entered on February 12, 2016).

iii

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

9

CONCLUSION

32

INDEX TO APPENDICES

APPENDIX A - Decision of Fifth Circuit Court of Appeals, denying
COA on April 12, 2021.
APPENDIX B - Decision of A. Joe Fish, Senior District Judge in the
U.S.D.C. Northern District, denying federal habeas
corpus and adopting Magistrate's Findings on March
4, 2020.
APPENDIX C - Findings, Conclusions, and Recommendation of the
U.S. Magistrate Filed on December 4, 2019.
APPENDIX D- Decision of Court of Criminal Appeals, denying state
habeas corpus without written order on June 6, 2018.
APPENDIX E - Decision of Fifth District Court of Appeals, affirmed decision of trial court on April 14, 2017.
APPENDIX F - Judgment of conviction by jury sheet in CDC #3 of
Dallas County, Sentencing Petitioner to 40 years in
TDCJ-CID.

iv

-TABLE OF AUTHORITIES CITED
CASES
Aetna Life Ins. Co. v. Ward, 140 U.S. 76 (1891)

PAGE NUMBER
13

Anderson v. Johnson, 338 F.3d 382 (5th Cir. 2003)

24

Brown v. Myers, 137 F.3d 1154 (9th Cir. 1998)

29

Bryant v. Scott, 28 F.3d 1411 (5th Cir. 1994)

29

Buck v. Davis, 137 US.Ct. 759 (2017)

7

Cannedy, Jr.'v. Adams

27,30

706 F.3d 1148 (9th Cir. 2013)

Dugas v. Coplain, 428 F.3d 317 (1st Cir. 2005)

24, 30

Earls v. McGaughtry, 379 F.3d 489 (7th Cir. 2004)

19,21,22

Engsser v. Deoley, 457 F..3d 731 (8th Cir. 2008)

16

Continues on Page vi.
STATUTES AND RULES
Federal Rules of Evidence 401 (2020)

3,24

Federal Rules of Evidence 607 (2020)

3,24

Federal Rules of Evidence 702 (2020)

3,6,13

Title 28 U.S.C. Section:.j 254( 1) (2020)

2

Title 28 U.S.C. Section 1257(a)(2020)

2

Title 28 U.S.C. Section 2253(c)(2020)

3,18

Texas Penal Code, Section 22.011(a)(2)(A)(2020)

4,5

Texas Penal Code, Section 22.011(c)(1)(2020)

4,5

Texas Penal Code, Section 22.011(f)(2020)

4,5

Texas Rules of Evidence 401 (2020)
Continues on Page vii

4

United States Constitution, Amendment VI (2020)

3

OTHER

United States Constitution, Amendment XIV, Section 1
(2020)

3
v

CASES*4

PAGE NUMBER

Hart v. Gomez

174 F.3d 1067 (9th Cir. 1999)

26

Hendrick v. Calderson. 70 F.3d 1067 (9th Cir. 1995)

25,26

James v. Boise

9

136 S.Ct. 685 (2016)

Lindstadt v. Keane, 239 F.3d 191 (2nd Cir. 2001)

26,29,31

Montgomery v. Peterson, 846 F.2d 407 (7th Cir. 1988)

29

Nealy v. Cabana, 764 F.2d 1173 (5th Cir. 1985)

28,29,30

Nichols v. American National Insurance, 154 F.3d
875 (8th Cir. 1998)

20

Nimely y. City of New York, 414 F.3d 381 (2nd Cir.
2005)

16

Richter v. Hickman, 578 F.3d 944 (9th Cir. 2009)

23,25,30

Riley v. Payne, 352 F.3d 1313 (9th Cir. 2009)

26

Rompilla v. Beard. 545 U.S. 384 (2005)

28

Snowden v Singletary. 135 F.3d 732 (11th Cir. 1998)

13,14,19

Strickland v. Washington. 466 U.S. 668 (1984)

18,22,31

U.S. v. Azure, 801 F.2d 336 (8th Cir. 1986)

13,15,19,20

U.S. vv.Beasley, 72 F.3d 1518 (11th Cir. 1996)

17.

U.S. v. Benson. 941 F.2d 598 (7th Cir. 1991)

14:, 15

CT.S. v. Cecil, 836 F.2d 1431 (4th Cir. 1988)

19

U.S . — * Charley, 176 F.3d 1265 (10th Cir. 1999)

17

U.S. v. Dorsey, 45 F.3d 809 (4th Cir. 1995)

16

U.S. v. Gonzalez-Maldonado

115 F.3d 9 (1st Cir.

1997)
U.S. y. Hill

16
749 F.3d 1250 (10th Cir. 2014)

15,21,22

U.S . v. Jackson. 576 F.2d 46 (5th Cir. 1978)

16

U.S. v. Rivera. 43 F.3d 1291 (9th Cir. 1995)

17

vi

■CA-SFST

PAGE NUMBER

U.S. v. Samera, 643 F.2d 701 (10th Cir. 1981)

17

U.S. v. Scheffer, 523 U.S. 303 (1998)

10,13

U.S. v. Scop, 846 F.2d 135 (2nd Cir. 1988)

16,19

U.S. v. Shay, 57 F.3d 126 (1st Cir. 1995)

16

U.S. v. Vest, 116 F.3d 1179 (7th Cir. 1997)

17

U.S. v. Ward, 169 F.3d 460 (8th Cir. 1993)

17

U.S. v. Whitted, 11 F.3d 782 (8th Cir. 1993)

13

Williams v. Taylor

27, 31

529 U.S. 362 (2000)

Williams v. Washington, 59 F.3d 673 (7th Cir. 1995)

31

STATUTORY LAW AND RULES:
Texas Rules of Evidence 607 (2020)

4

Texas Rules of Evidence 702 (2020)

4,6

vii

IN-THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
Exl For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix_-__ to
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
®__ to

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
§03 is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix N/A to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
N/A .
The opinion of the
appears at Appendix N/A to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

court

JURISDICTION
£x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was April 12, 2021
|gxl No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date: ____________
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including_______
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was N/A
A copy of that decision appears at Appendix _N/A----[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

________ CGLNSJJTJUTIONAL-AND-STATUTORY-PROVISIONSlNVOtVED
United States Constitution, Amendment VI (2020):
In all criminal prosecutions, the accused shall enjoy the right
to a speedy and public trial, by an impartial jury of the State
and district wherein the crime shall have been committed, which
district shall have been previously ascertained by law, and to
be informed of the nature and cause, of the accusation; to be
confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defence.
United States Constitution, Amendment XIV, Sec. 1 (2020):
Section 1. All PersonsFborn' or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of the
United States and of the State wherein they reside. No state
shall abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person of life,
liberty, or property, without due process of lav?; nor deny to
any person within its jurisdiction the equal protection of the
laws .
Title 28 U.S.C. Section 2253(c)(2020):
(c)(1) Unless a circuit justice or judge issues..; a certificate
of appealability, an appeal may not be taken to the court of
appeals from
(A) The final order in a habeas corpus proceed­
ing in which the detention complained of arises out of process
issued by a State Court; or (B) the final order in a proceed­
ing under section 2255.
(2) A certificate of appealability may
issue under paragraph (1) only if the applicant has made a sub­
stantial showing of the denial of a constitutional right.
(3) The Certificate of appealability under paragraph (1) shall
indicate which specific issue or issues satisfy the showing re­
quired by paragraph (2).
Federal Rules of Evidence (2020):
Rule 401. Test for Relevant Evidence: Evidence is relevant if:
(a) it has any tendency to make a fact more or less probable
than it would be without the evidence; and (b) the fact is of
consequence in determining the action.
Rule 607. Who May Impeach a Witness. Any Party, including the
party that called the witness, may attack the witness's cred­
ibility .
Rule 702. Testimony By Expert Witnesses. A witness who is qual---- ified as an expert by knowledge, skill, experience, training,
or education may testify in the form of an opinion or otherwise
if: (a) the expert's scientific technical or other special3

i zed kTrow ledge will help the-trier of-fact to understand the
evidence or to determine a fact in issue:
(b) the testimony
is based on sufficient facts or data;
(c)-the testimony is the
product of reliable principles and methods; and (d) the expert
has reliably applied the principles and methods to the facts of
the case.
Texas Penal Code, Section 22.011(a)(2)(A), (c)(1), &\(f)(2020):
(a)(2)(A) A person commits an offense of Sexual Assault if:
regardless of whether the person-knows the age of the child at
the time of the offense, the person intentionally or knowingly
causes the penetration of the anus or sexual organ of a child
by any means. ... (c)(1) "Child" means a person younger than 17
of age. (f) An offense under this section is a felony of the
second degree[.].
Texas Rules of Evidence (2020):
Rule 401. Test for Relevant.Evidence. Evidence is relevant if:
v-.,.(a) it has any tendency to make a fact more or less probable
than it would be without the evidence; and (b) the fact is of
consequence in determining -.the action.
Rule 607. Who May Impeach a Witness. Any party;,'- including the
party that called the witness, may attack the witness's credi­
bility.
Rule 702. Testimony By Expert Witnesses. A witness who is qual­
ified as an expert by knowledge, skill, experience, training,
or education may testify in the form of an opinion or otherwise
if the expert's scientific, technical, or other specialized
knowledge will help the trier of fact to understand the evidence or to determine a fact in issue.

4

STATEMENT OF THE CASE
This is an appeal from the Fifth Circuit Court of Appeals deny­
ing Petitioner's motion for certificate of appealability on April
12, 2021, by Patrick E. Higginbotham, Circuit Judge. See Appendix
A.' The Petitioner challenges his original judgement of conviction
by jury ("Judgment"), and Sentence (Cr, 84.-85; . Appendix. F) , ren­
dered in the Criminal District Court No. 3 of Dallas County for
Sexual Assault of a child, a second degree felony, enhanced by two
paragraphs due to prior final felony.convictions, for which Peti­
tioner was sentenced to 40 years in the Texas Department of Crimi­
nal Justice - Criminal Institutional Division (TDCJ-CID). RR6, 110;
Texas Penal Code § 22.011(a)(2)(A),
On June 23, 2015

(c)(1), & (f)(2020).

Petitioner was indicted for Sexual Assault

of a child as follows: It was alleged that on or about June 20,
2013, in Dallas County, Texas, Petitioner intentionally and know.inglyceaused the penetration of the female sexual organ of the
complaining witness (K.H.), a child younger than 17 years of age
by Petitioner's sexual organ. RR3, 6-7; Cr, 8; Texas Penal Code §
22.011(a)(2)(A), (c)(1), & (f)(2020). Petitioner pleaded "not
guilty" to the allegations in the indictment. RR3, 7. A trial was
held before a jury, and after deliberations, the jury found Peti­
tioner guilty as charged in the indictment. RR3-RR6; RR6, 110.
Further, after hearing additional, evidence during the hearing on
punishment-, on February 12, 2016, the trial court assessed Peti­
tioner's sentence at 40 years in TDCJ-CID. RR6, 126; Cr, 84-85.
At trial, Desiree Teague's (Prosecution's Clinical Director and
Therapist) testimony did not aid the jury with K.H.'s (Complain5

■a-frt-)—th-er^a-p-y-- experifence—as—prescribed_by_S.tate_and Federal Rule
702 to the Rules of Evidence; but instead, told the jury to be.-=:\.
lieve K'-H. because "we rarily see a child come in that is lying."
RR5, 125-26. The K.H.'s. Credibility was a big issue at trial

and

this prejudicially erroneous concept had a substantial effect on
the jury. RR6, 92-129. Counsel rendered ineffective assistance
because Counsel did not object,:.nor^ didr.he'Attempt to obtain a
mistrial, and the Therapist's concept compounded prejudicial harm
in the Prosecution's closing argument. RR5, 76-96. The Prosecu­
tion exclaims to the jury "why would I call somebody that I know
is gonna by lying on the witness stand? You see, there's something
better than Damond Dean Jr. [Petitioner's son whom prosecution
claims lied for Petitioner], and it's the truth [K.H.'s t e s t i:-

;

mony]." [K.H.] knows that the truth will prevail and because of
her therapy "she is now a teacher about her rape" experience.
RR6, 93-95.
On March 4, 2020, Senior District Judge A. Joe Fish.'adopted the
Magistrate's findings of fact and conclusions of law. Cf. Appendix
B with C. Overall, the Northern District Court Debatably held on
December 4

2019, that "Petitioner fails to demonstrate or even

allege prejudice. And, Petitioner's Counsel cured any possible
harm by eliciting from the therapist testimony that she does not
conduct investigations and does not know with certainty whether
any victims, including the victim in this case, are telling the
truth. Appendix C, Pgs. 14-15.
Additionally, Counsel failed to interview Cassandra Taylor,
Katanya Jones, Kelvis MiinSj Damond Dean Jr. (whom testified at
6

trial), and obtain Petitioner's work records from OTTO Environ­
mental Systems North America, INC. As a lengthy, factually rich,
and detailed presentation, in Petitioner's question Number Two,
provides this Honorable Court with ripeness to hold Counsel fail­
ed to investigate, and introduce into evidence the testimony of
witnesses and records (that the jury should not have been deprived
of) to impeach the credibility of K.H. in their determination
whether K.H. was lying and the Petitioner's testimony was truth­
ful and accurate.
Overall, the lower courts debatably held on December 4, 2019,
that "Petitoiner fails to show how any of the present evidence
would have altered the outcome of the trial to demonstrate that
Counsel provided ineffective assistance." Appendix c, Pgs. 11-14.
Although Petitioner provided proof by a substantial showing,
the Fifth Circuit sidesteped the COA process by first : deciding
the merits of his appeal, and then justified its denial of Peti­
tioner's COA based on its adjudication of the merits. In violation
of Buck v. Davis [137 S.Ct. 759] the Fifth Circuit held:
"Dean does not raise many'of the claims that he raised in the
district court, including claims that (1) he was actually inno­
cent; (2) his counsel rendered ineffective assistance when he
failed to (a) generally investigate and adequately prepare for
trial; (b) object to the admission of various records regard­
ing the treatment of the victim; (c) object to certain purport­
ed hearsay testimony by the victim; and (d) make an opening
statement; (3) the trial court violated his due process rights
when it admitted into evidence certain jailhouse telephone
calls; and (4) the prosecutor engaged in misconduct when he
knowingly elicited perjuried testimony. Accordingly, [Petition­
er] has abandoned these claims. A COA may issue if the appli­
cant makes a substantial showing of the denial of a constitu­
tional right. An applicant satisfies this standard by demon­
strating that reasonable jurist would find the district court's
7

assessment of the constitutional claims debatable or wrong."
See Apendix A, Pgs. 1-2. ".[Petitioner] has not met this standard."
id. Taken together, after review of this Petition,
this Honors
able Court should grant certiorari and order ;brief s on the merits.

8

BEASONS.FOR.GRANTING-THE-PETITION
In James v. Boise, this Honorable Court declared that it has
the responsibility to decide the meaning of federal and state
statutes: "[0]nce the court has spoken, it is the duty of the '
other courts to respect that understanding of the governing rule
of law.” _Id. , 136 S.Ct. 685 (2016). The Fifth Circuit Court of
Appeals, The Northern District Court, and Court of Criminal

:

Appeals ("Lower Courts"), did not hold their respect to this Honor­
able Court in denying relief when Petitioner made a substantial
showing that counsel rendered ineffective assistance in two criti­
cal points of error:
First, Counsel failed to object to K.H.'s therapist's testimony,
when she made a credibility determination for the jury and declared
"most of the time, if not

majority of the time that children come

into our center, it is very rare that we see a child come in that
is lying." RR5, 126. And Second, Counsel failed to investigate and
call: (1) Cassandra Taylor, whom brings impeaching testimony that
contradicts

K.H.'s reputation as a well behaved and respectful

student; (2) Kelvis Mims

whom brings impeaching testimony to con-

tradict K.H. s "I called Kelvis to make up I'm pregnant story."
And, (3) Katanga Jones, whom bring credibility to Kelvis Mim's
testimony. Truly, all three witnesses provided the state courts
with an affidavit to demonstrate their testimony and availability
to testify in which the lower courts ignored. Therefore, this
Honorable Court should grant certiorari because, these two questions
are flesh and blood controversies that only this Honorable Court
should speak on and make its lasting effects in its positive deter9

mination

to the following

QUESTION NUMBER ONE:
Counsel rendered ineffective assistance by failing to object to
K.H. s (Complainant) therapist's testimony when she.', told the jury
"I would say most of the time, if not the majority of the time,
that children come into our center:, it is very rare that we see a
child come in that is lying." RR5, 126. Because this Honorable
Court makes it clear that "determining the weight and credibility
of witness testimony belongs;.: to the jury," should the jurists of
reason consider the lower court's decision substantially debatable,
for holding "Counsel cured any possible harm by eliciting from the
therapist testimony that she does not conduct investigations, and
does not know with certainty whether any victim including K.H. are
telling the truth or a lie?" Cf. United States v. Scheffer, 523
U.S. 303', 118 S.Ct. 1261, 1278 (1998).
a* Prejudicially erroneous testimony by Desiree Teague, the
Prosecution's Clinical Director and Therapist.
Desiree.Teague's entire testimony is already,highly bolstering
in nature on how K.H. felt before, during, and after her outcry
to her mom. RR5

92-129. Ms. Teague testified that the sole pur­

pose of K.H.'s treatment for the common symptom of post-traumatic
and avoidance disorder. RR5

108-112. According to Ms. Teague it

is common and normal for a delayed outcry and for more details to
come out as treatment

continues. RR, 116-120. During cross-exam­

ination, pertaining to treatment, it could be considered to be
normal if a child would come in lying. RR5, 120-121. According to
Ms. Teague it does not matter whether or not a child comes in tell10

i*g—the—fceu-th—or—a—1-i-e—b e ca us-e—M s-—Tea grreTO n Ty— re a" t's~the systoms
for which they come in for. RR5, 120-125. Truly

the scope of

Counsel's cross examination exposed to the jury that Ms. Teague :
did not investigate the case

and did not interview witnesses

obtain sensory details in the outcry

nor reviewed the CPS records.

Ms. Teague only provided therapy treatment for R.;H.'s symptoms of
post-traumatic and avoidance disorder. RR5

119-125.

On,redirect examination, Ms. Teague, then, passed judgment on
R;H. credibility and truthfulness in the guise of medical opinion
and told the jury whom to believe, as the following colloquy took
place:
Q: (By Ms. Wiles, Lead Prosecutor): You were asked if a child
was telling the truth or telling a lie, that wuuld be normal?

A: Uh-huh.
Q: And I believe your response was you can [not] answer that
with just a yes or no?
A: Yes.
Q: Would you like to explain what you mean by that?
A: Yes,. I would say most of the time, if not majority of the
time that children come into our center, it is very rare that
is lying.
RR5, 125-26. Counsel never objected to Ms. Teague's credibility v
determination. Id. Nevertheless

the following recross examination

took place: Ms. Teague's goal is for K.H. to become confident based
on the therapy that she received. RR5, 128. Ms. Teague does not
know anything K.H. was saying true or false statements to police
or CPS officials. RR5, 129.
Taken together, Ms. Teague's testimony did not aid the jury
with K.H.'s therapy experience; but instead, told the jury what.
11

■■

-the-fa-G-ts—a-re, that Is—Hw-e—naxjJLy—see_a—child comp in fha t is
lying." RR5, 92-129. Counsel did not cure harm by his recross
examination. RR5, 128-29. Truly, the compounding effect of Ms.
Teague's erroneous credibility determinations occurred during the
Prosecution's closing argument. RR5, 76-96. The Prosecutor was
allowed to highly use Ms. Teague's credibility determinations as
ammunition to sway the jury's verdict:
"Why would [K.H.] lie about this for three years (RR6, 78-79)
... She lied to protect her self-worth

she was at a breaking

point and that breaking point came when she knew that the lie was
to great to carry on." RR6, 92.

. . . "Why would I call somebody

that I know is gonna be lying on the witness stand? You. see,
there is something better than Damond Dean Jr. [Whom lied for Pet­
itioner] and it's the truth |K.H.'s testimony]." (RR6, 93). "K.H.
knows that the truth will prevail" and because of her therapy "She
is now a teacher about her rape" experience. (RR6, 94-95).
Again, Counsel did not object to this either. The credibility
of K.H. is the critical focus of Petitioner's entire trial. Because
Ms. Teague and the prosecution told the jury what the facts are
the effect of their credibility determination severely effected
the jury during their five-hour-hand-twenty-minute deliberation.
RR6, 99-109. The jury ultimately wanted to know "how K.H. felt
when she was telling her mom in the bathroom about [Petitioner]
kissing her funny." RR6, 99-109. As a result, prejudicially com­
pounding testimony occurred when the jury was told "that abused
victims rarily lie about their abuse," especially for three years.
Finally, this Honorable Court should speak out and intruct the
12

J-0-wex_courts that any competent attorney

in this situation, would

have highly objected to Desiree Teague's credibility determination,
then sought for an instruction or mistrial when the Prosecution
ensured the jury that K.H. does not lie.
b. Jurists of Reason finds the lower courts decision substantially debatable for holding that Counsel's performance did
not fall below an objective standard of reasonableness.
A doctor or therapist cannot pass judgment on the alleged victimis:’ truthfulness in the guise of a medical opinion because it
is the jury's function to decide credibility. See United States v
Whitted, 11 F.3d 782
v. Azure

785-86 (8th Cir. 1993)(Citing United States

801 F.2d:336, 339-41 (8th Cir. 1986). The Eighth Circuit

held a pediatrician's testimony that an alleged child abuse victim
was believable and telling the truth was not admissible under Rule
.702 because the doctor put "his stamp, of believability on [K.H.'s]
entire story." _Id. (citing Fed. R. Evidx 702). In both! state and
federal trials

such "evidence is improper can hardly be disputed,"

Snowden v. Singletary, 135 F.3d 732, 738 (11th Cir. 1998)

and the

reason is simple, this Honorable court has already- spoken

and i t

is the duty of the lower courts to respect that "[djetermining the
weight and credibility of witness testimony ... belongs to the
jury." United States v. Scheffer, 523 U.S. 303, 313, 118 S.Ct.
1261 (1998); accord, Aetna Life Ins. Co. v. Ward, 140 U.S. 76

88

11 S.Ct. 730 (1991)(The reason the issue of credibility "belong to
the jury" is that jurors "are presumed to be [focalized] by their
natural intelligence and their practical knowledge of men and the
ways of men."). Truly, this Honorable court should reaffirm its
x
13

function and hold_t.ha.t_Des-ix-e e_Teague—s—tes -t-i-m ony—i-n vaded—the—----jury's exclusive providence to decide ..witness credibility when
Ms. Teague told the jury that "mostiof the time, if not majority
of the time that children come into our center, it is very rare
that [K.H.] is lying. RR5, 125-26.
In this situation, reasonable jurist must conclude that counsel
should have objected to Ms. Teague's credibility determinations at
bar. Comparably, the Eleventh Circuit decided a similiar expert
statement as that of Ms. Teague's statement: "The evidence at is.
issue in this petition is testimony by an expert witness (Dr.
Miranda) that 99.5% of children tell the truth and that the expert,
in his own experience with children,- had not personally encounter­
ed an instance 'where a child has invented a lie about,abuse. These
statements were elicited during the presentation of the state's
case-in-chief by prosecutor's questions which were linked to the
expert's interviews with a specific child who testified at trial
the only child who testified in the case who also identified by.
the state as the victim of the crime for which Snowden was on
trial." ... therefore, "we conclude that allowing expert testimony
to boost the credibility of the main witness against Snowden—con­
sidering the lack of other evidence of guilt—violated his right
to due process by making his criminal trial fundamentally unfair."
See Snowden v. Singletary, 135 F.3d 732, 737-39 (11th Cir. 1998).
Further, as the Seventh Circuit in United States v. Benson ex­
plained: "This is not to say that an expert witness may not give
testimony that,.if:accepted, will lead the jury to disbelieve a
witness suppose, for example, that a defendant in a suit involving
14

.t e s.ti-fied—tha-t—h e_is_t ra ve 1 i n g_l-5---2.Q—mi-te-s—

an.

per hour when he entered an intersection and hit plaintiff's car.
An accident reconstruction expert testifies, however, to the two
cars

his estimate of the point of impact, the two car's final

resting positions, and other factors, that the defendant has to be
traveling at least 40 miles per hour when he entered the intersec­
tion. That is useful expert testimony because it is based on spec­
ialized knowledge that is not within the average layman's ken.
If the jury accepted that testimony, it would necessarily dis­
believe the defendant but that, is no reason for refusing to admit
the testimony. Benson, 941 F.2d 598, 604-05 (7th Cir. 1991). Similiar to Ms. Teague's testimony, Cantzler's testimony in Benson's
case is different, though. [The Expert] had no reason based on any
special skill or knowledge [she] possessed for believing, for
example, that Meinarai was telling the truth when she testified
that Benson worked for her, or that Rhodes was telling the truth
when he denied any secret settlement existed between Benson and
underwriters. [Expert] did not give helpful expert testimony that
cast another witness' testimony in a good or bad light;, instead,
[the expert] told the jury whom to believe. Ld; 941 F.2d at 604-05.
Each of these rulings was based on the theory that the credibility:
of another is not an appropriate subject for expert opinion testimony. Cf. United States v. Hill, 749 F.3d 1250, 1260
(11th Cir.-2014). The fifth circuit agreed to its sibling circuit:
courts that have considered this issue have uniformly agreed. Cf.
United States v. Azure, 801 F.2d at 340-41 (expert testimony about
credibility of alleged-child-sexual-assault victim improperly in-

15

\7-flHpd priori npp nf jnry; whi r.h "may_wel.]—have—relied—on—[_e_xp.er..t_s_I
opinion and surrender[ed] their own common sence in weighing testimony."); Engsser v. Deoley, 457 F•3d 731, 736 (8th Cir. 2006)( An
expert's may not opine on another witness's credibility); United
States v. Gonzalez-Maldonado, 115 F.3d 9, 16 (1st Cir. 1997)("An
expert's opinion that another witness is lying or telling the truth
is ordinarily inadmissible pursuant to Rule 702 because the opinion
exceeds the scope of the expert's specializied knowledge and there­
fore merely informs the jury that it should reach a particular
conclusion." (quotation omitted)); United State v. Shay^ 57 F.3d
126, 131 (1st Cir. 1995)(Same); United States v. Scop, 846 F.2d
135, 142 (2nd Cir. 1998)("Witness A may not offer an opinion as to
relevant facts based on A's assessment of the trustworthiness or
accuracy of witness B where B's credibility

is an issue to be

determined by the trier of fact. Were we to:rule otherwise, triers
of fact would be called upon to either evaluate opinion testimony
in ignorance of an important foundation for that opinion or to
hear testimony that is otherwise inadmissible and highly prejudi­
cial."); Nimely v. City of New York, 414 F.3d 381, 398 (2d Cir.
2005)("[T]his court

echoed by'our sister circuits, has consistent­

ly held that expert opinions that constitute expertise, are inad­
missible under Rule 702."); United States v. Dorsey, 45 F.3d 809,
815 (4th Cir. 1995)("[Expert] testimony can be properly excluded
if it is introduced

merely to cast doubt on the credibility of

other eyewitnesses,

since the evaluation usually within the jury s

exclusive purview."); United States v. Jackson, 576 F.2d 46, 49
(5th Cir. 1978)([pjsychiatric opinions as to witness' reliability
16

in di sti

£^.m—F^-n-fc^y—j-.s^-i-a-a4ffi4-s-s4-blG f or—i-mpe-a-eb—

ment purposes for it invades the jury's province to make credibil­
ity determinations); United States v. Vest, 116 F.3d 1179, 1185
(7th Cir. 1997)("Credibility is not a proper subject for expert
testimony, the jury does not need an expert to tell it whom to be
lieve

and the expert's stamp of approval on a particular witness

testimony may unduly influence the jury)(citations

omitted);

United States v. Rivera, 43 F.3d 1291, 1295 (9th Cir. 1995)("[A]n
expert witness is not permitted to testify specifically to a wit­
ness' credibility or to testify in such a manner as to improperly
buttress a witness' credibility."); United States v. Samera 5 643
F.2d 701, 705 (10th Cir. 1981)("[A]n expert .'may not go so far as
to surpass the exclusive function of the jury to weigh the evidence
and determine credibility.

i n

)(quoting United States v. Pard5 169.

FT2d 460, 464 (3rd Cir. 1948); United States v. Charley, 176 F.3d
1265, 1279 (10th Cir. 1999)("Expert testimony which does nothing
but vouch for the credibility determinations, and therefore does
not "assist the trier of fact" as required by Rule 702."); United
States v. Beasley,' 72 F.3d 1518, 1528 (11th Cir. 1996)("Absent un­
usual circumstances expert medical testimony concerning the truths
fulness or credibility of a witness is inadmissible ... because it
invades the jury's province to make credibility determinations.").
In Petitioner's case, the lower courts reasoned that Counsel
cured prejudice by eliciting from the Therapist testimony that she
does not conduct investigations and does not know with certainty
whether any victims, including the victim in this case, are tellr
ing the truth. Appendix C, Pgs . 14-15. Axiomly, jurist of reason
17

d-eba -Pabl-e—ba&au-s-e—
the standing federal law, comparably, concludes that Counsel fell
below an objective standard of reasonableness, by his failure to
object to Ms. Teague's prejudicial credibility determinations at
bar. Cf.28 U.S.C. § 2253(c)(2)(West 2020); Strickland v. Washington

466 U.S. 668, 687-88, 104 S.Ct. 2052 (1984). Taken together,

this Honorable Court should speak out to Its inferior courts and
conclude that "It is clear Ms.. Teague's credibility determinations
are inadmissible, and it is very clear that any compentent attor­
ney would have objected to Ms. Teague's inadmissifiier_ statements."
Therefore, certiorari must be granted.
c. Jurist of Reason finds the lower courts decision substantially debatable for holding that Petitioner fails to establish
prejudice when counsel cured harm in its cross-examination.
The lower courts decision is substantially debatable for con­
cluding "Petitioner fails to demonstrate or even allege prejudice"
because "Petitioner's counsel cured any possible [prejudice] by
eliciting from the therapist,testimony that she'does not conduct
investigations and does not know with certainty whether any ’
victims

including the victim in this case, are telling the truth."

Appendix C, pgs. 14-15. Ms. Teague's goal is for K.H. to become confident based on the therapy.that she received. RR5, 128.
According to Ms. Teague, it is normal for victims to lie "when,
in reality, they are telling the truth." RR5, 120-25.
It is very clear that Ms. Teague's testimony did not aid the
jury with Complainant's therapy experience; but instead, told the
jury to believe R^H. because "we rarily see a child come in that
18

is lying." RR5. 92-129; United States v. Scop, 841 F.2d 135, 142
(2nd Cir. 1988)(We believe that such testimony not only should be
excluded as overly prejudicial but also rendered inadmissible"any
secondary opinion); United States v. Azure, 801 F.2d at 340-41
("No reliable test for truthfulness exists and [Desiree Teague]
was not qualified to judge the truthfulness of that 'party-oof [K.H]
story line. The jury may well have relied on [her opinion] and
"surrender[ed] their own common sence in weighing testimony.");
United States v. Cecil, 836 F.2d 1431, 1442 (4th Cir. 1988)("The
effect of reviewing such testimony, however, may be two-fold:
common sence in
First, it may cause juries to surrender their own
weighing testimony; second, it may produce a trial within a trial
on what is so natural but credibility is still an important mat­
ter .") .
This Honorable Court has already spoken, in similiar situations
that it is Counsel's duty to object to Ms. Teague s line of testimony; especially, when Counsel did not cure any harm by his recross examination. Cf. Earls v. McGaughtry, 379 F.3d 489, 495 (7th
Cir. 2004)("We have previously held that when a trial comes down
to a single issue such as the credibility of a witness, deficient
performanceiby defense counsel regarding that credibility issue
may cause prejudice.")(Citation omitted); Snowden v. Singletary,
135 F.3d at 737-39 (Where "the heart of the case" .is testimony by
three allegedly abused children due process was violation by ime
proper expert opinion that 99.5% of children tell the truth about
sexual abuse).
Axiomly, the compounding effect of Ms. Teague s.prejudcial
19

credibility determinations occurred during the prosecution's closing argument. RR5

76-96. Counsel allowed the prosecution (without

any attempt to object) to highly use Ms. Teague's credibility lUt
determinations as ammunition to sway the jury's verdict:
"Why would [K.H.] lie about this for three years RR6, 78-79."
... "She lied to protect her self-worth, she was at a breaking
point and that breaking point came when she knew that the lie was
to great to carry on." (RR6, 92).

... "Why would I call somebody

that I know is gonna be lying on the witness stand? You see,

■;

there's something better than Damond Dean Jr. [whom lied for
Petitioner] and it's the truth [K.H.'s testimony]." RR6, 93.
"[K.H.] knows that the truth will prevail" and because of her .
therapy "she is now a teacher about her rape" experience. RR6, 9496. Cf. Nichols v. American National Insurance, 154 F.3d 875, 884
(8th Cir. 1998)(prejudice is increased because of the use that was
much of the testimony in closing argument); United States v. Azure,
801 F.2d at 340-41 (putting an impressively qualified expert's
stamp of truthfulness on [K.H.'s] story goes to far.).
The credibilityvof K.H. is the critical focus of Petitioner's
entire trial. K.H. s testimony, for being an adult, was extremely
generalized with a large amount of details missing out of the
Police

CPS, and Medicial Reports. In other words

K.H.'s testi-

mony is virtually weak, generalized, and highly inconsistant.
There is no physical evidence of abuse, and no witness could corroborate K.H.'s events on Juneteenth's weekend in their home, along with other people in the home at the same as. -the alleged
abuse occurred. No witness testified to any involvement of the
20

an outcry that "Petitioner ki

*^and

acting out in school. Ms. Teague was virtually the only non-biased
witness who appeared before the jury as an expert, and told them
that

children would rarely lie." Thus, the prosecution

would not

put up anyone on the stand they say is not lying. Cf. Earls v.
McGaughtry, 379 F.3d 489, 494-95 (7th Gir. 2004)([The Court] can
think of no strategic reason why [Petitioner's] Counsel would not
have objected to the- vieces of questionable testimony going to :
this issue). Truly, because Ms. Teague and the Prosecution told
the jury whom to believe, the substantial effect of their state­
ments are seen during the jury's five-hour-and-twenty-minute deliberation. RR6

99-109. The jury ultimately wanted to know "how the

Kt-H: felt when she was telling her mom in the bathroom about [Pet­
itioner] kissing her funny." RR6, 99-109. This jury note reveals
that the jury believed that "children rarily lies about abuse" be­
cause they were!focused on how K.H. :felt during telling

morn•: her

abuse story, and not on the alleged offense at hand. RR6, 99-109.
As a result, the jury was unduly swayed by Ms. Teague and the Pro­
secution s improper credibility determination when the jury was ;
told : "Abused victims rarely lie about their abuse," especially
for three years. Cf. United States v. Hilly- 749 F.3d 1250, 1266
(10th Cir. 2014)(In light of the complete record before us

this

Court should find that Petitioner "has carried his burden of showing a reasonable probability that the result of his trial would
have been different without the impermissible testimony.").
Taken together, this Honorable Court should grant certiorari o
because any competent attorney in this situation would have highly
21

objected to Desiree Teague's credibility determination, and sought
for an instruction from the court, then for a motion for mistrial.
Therefore, this Honorable Court should speak to the lower courts
and hold that Counsel rendered ineffective assistance in failing
to object to Ms. Teague's testimony because the likelihood that
the jury was unduly swayed by Teague's improper testimony—-and
would not unduly found Petitioner guilty beyond a reasonable doubt
absent that testimony—is high enough to undermine this'Court's
confidence in the result of the trial. Hill, 749 F.3d at 1266;
Earls, 379 F.3d at 496 (giving the facts and circumstances of the
trial, [The Court] find[s] that the state court was^unreasonable
in finding that there was not a reasonable probability that,
absent Counsel's errors

the outcome of the trial would have been

different.); Strickland, 466 U.S. at 687-89, 104 S.Ct. 2052.
QUESTION NUMBER TWO:
Counsel rendered ineffective assistance by failing to investi­
gate and present material witnesses to corroborate the Petitioner's
defensive theory that no sexual assault ever took place. Because
Counsel is obligated to conduct a reasonable investigation in or­
der to present the most persuasive case that he can, should a ju­
rist of reason consider the lower court's decision substantially
debatable for generally holding: "Petitioner fails to show how any
of the present evidence would have altered the outcome of the’ trial
to demonstrate that counsel provided ineffective assistance?" See
Strickland v. Washington, 466 U.S. 668, 685, 104 S.Ct. 2054 (1984).

22

a. A proper investigation would have provided corroborating; evi­
dence to support the Petitioner's bare testimony that the
alleged sexual assault did not take place.
Petitioner told Counsel to seek to interview "Cassandra Taylor,
Katanya Jones, Kelvis Mims, Damond Dean Jr. (Whom testified at ‘
trial, and obtain Petitioner's work records from OTTO Environmen­
tal Systems North America, Inc. Truly, the Petitioner argues that
had Counsel investigated and introduced into evidence the testi­
mony of the witnesses and records, the jury would not have been I
left to decide, without benefit of supporting or corroborative evi­
dence, whether the Petitioner's testimony is truthful and accurate.
Cf. Richter v. Hickman, 578 F.3d 944, 958 (9th Cir. 2009)(Leaving
the jurors to believe or disbelieve defendants solely on:the basis
of their own testimony, without supporting evidence, where such
evidence could be obtained with diligent investigation

is objec-

tively unreasonable)(citations omitted). Therefore, this Honorable
Court must grant certiorari as the Petitioner explains the sub­
stantial evidence below.
b. Reasonable Jurist finds Counsel's decision hot.to introduce
testimonial evidence to corroborate Petitioner's testimony
renders ineffective assistance of counsel.
1 • Petitioner's affldairitsffrom Cassandra Taylor, Katanya
Jones, and Kelvis Mims are not speculative assertions,
but relevant evidence.
The lower courts asserted that Petitioner's three witness affi­
davits are "speculations regarding what [Petitioner] believes his
attorney would have discovered." Appendix C, Pgs. 12-13. The lower
23

■eeur-t-s—d-e-e-i-sl-on—rs—s~nbsi:~aTitl~a±±y~deb^tabl~e~b~ecause witness aff~±=
davits are considered relevant evidence that has any tendency to
make a fact more or less probable than it would be without the
evidence. Fed. R. Evid. 401. The inclusion of witness affidavits
the Honorable Court should declare under Rule 401 that they are
not speculations; but instead, relevant evidence. Id_. For example,
in Kelvis Mims' affidavit, impeaches K.H.'s "can you lie:: for me
and tell mom I am pregnant by you to cover up the rape and protect
the Petitioner" story is not speculation. RR5

93, 100-102. In?-:

stead, Mims could have brought impeaching testimony as defined by
Rule 607 to attack K.H.'s credibility, in which was a major focus
point during Petitioner's trial. Cf. Fed. R. Evid. 607.
In another instance, K.H. testified that Kelvis and K.H. was
not sexually active because she has not seen Mims in years. Truly,
Mims testified (in his affidavit) that they were sexually active
in June of 2013, the year and month of the alleged rape. Cf. Mims1
Affidavit; RR4, 100-102; accord, Anderson v. Johnson, 338 F.3d
382, 391 (5th Cir. 2003)("[E]ven if cross examination was effec­
tive, that is not to say it could not have been improved by prior
investigation). The jury was entitled to consider this witness's
testimony, and Counsel prohibited this relevant evidence from the
jury s consideration due to Counsel's failure to properly investigate the factual basis of Petitioner's case. Cf. Dugas v. Coplain,
428 F.3d 317, 328-334 (1st Cir. 2005)(In an arson case, Counsel's
failure to consult arson expert as part of his investigation into
arson charge against [Dugas] constituted ineffective assistance).
Therefore

this Honorable:Court must speak out to the lower courts
24

■&ftd—gi^gtttt-^eertiorari';-----2. A Reasonable Jurist finds that Cassandra Taylor, and
Kelvis Mims1 affidavit present impeaching testimony that
is very beneficial to Petitioner's defense.
The lower courts assert that Cassandra Taylor and Mims

af f i-

davit are of no benefit because alot of their testimony was brought
out in trial. Appendix C, Pgs. 12-14. This decision is substantial­
ly debatable because both affidavits would have brought out im­
peaching testimony and discredited K.H.'s credibility, in which
was a huge issue and factor in debate at Petitioner’s trial. Cf.
Richter v. Hickman, 578 F.3d 914, 956-57 (9th Cir. 2009)(Counsel
is obligated to conduct a reasonable investigation in order to
present the most persuasive case that he can). At trial, the test­
imony of K.H. acting out at school was an isolated incident in the
hallway because K.H.7 could not take the pressure of hiding the al­
leged rape story in any longer. RR4, 105-112. Cassandra Taylor
could have discredited the inference that'-K.H. "never had a refer­
ral since in school, other than acting out in the hallway." indi­
cating an isolated incident. Cassandra testified (in her affidavit)
K.H. has disruptive behavour problems that are ongoing. In other
words, K.H. has behavour issues at school, that is ongoing

andd

not to the contrary as K.H. told the jury. Truly, the jury was
entitled to consider Cassandra Taylor's testimony at trial. Cf.
Hendrick v. Calderson, 70 F.3d 1032, 1040 (9th Cir. 1995)("An
attorney must provide factual support for the defense where such
corroboration is available).
Further

K.H. told the jury that she called Mims to tell her

525

mem-.that—they wp.r..p sexually ac_t.ive that he got her pregnant to
hide the alleged rape from K.H.'s mom, whom was also a rape victim,,
and to protect the Petitioner. K.H. further told the jury that
they really were not sexually active because K.H. had not seen
Mims in years. RR4

100-102. To the contrary., Mims testified (in

his affidavit) that they were sexually active in June of 2013. 7
K.H. lied and previously told Mims, on another occassion, that she
was pregnant with his baby; therefore, indicating that K.H. has a
history about lying concerning her own pregnancy and not just a
single incident to the alleged rape story from her mom, and to pro­
tect the Petitioner. This evidence also should have been presented
to the jury; therefore, this Honorable Court court should speak
out and grant certiorari. Then

hold that Counsel failed to uphold

his duty to reasonably present<corroborating evidence to the Peti­
tioner's defensive theory. Cf. Hendricks, 70 F.3d at 1040 (failure
to pursue such corroborating evidence with an adequate pretrial
investigation establishes constitutionally deficient performance);
Riley v. Payne, 352 F.3d 1313, 1319-20 (9th Cir. 2003)("[Wjithout
any corroborating witnesses, [Petitioner's] bare testimony left
him without any effective defense.")(internal quotations omitted);
Hart, 174 F.3d at 1070 ("Defense Counsel failed to'investigate or
introduceiinto evidence the records that:fully corroborated [the
witness's] statements. Thus, the jury was left to decide

without

benefit of supporting or'/corroborative evidence, whether [the witness s] testimony was truthful and accurate, or whether it was un­
reliable or offered simply in an effort to assist a former lover.);
Linds tadt v. Keane

239 F.3d 191, 203 (2d Cir. 2001)("[l]n a credi26

_hi 1 i 1-y contest

testimony of neutral, disinterested witnesses is

exceedingly important."); & Williams v. Taylor, 529 U.S. 362, 120
S.Ct. 1495, 1514-15 (2000)(holding that a failure to investigate
and present mitigating evidence during [guilt-innocence phase]
constituted ineffective assistance even when doing so would have
admitted some unfavorable evidence).
5, 3. Jurist of Reason finds that Cassandra Taylor and Kelvis
Mims were available to testify at trial, had Counsel in­
vestigated and called for them to testify.
The lower courts assert that "while Petitioner cites to the
affidavits of Mims and Taylor, submitted with his State habeas
application, he does not show that either Mims or Taylor were
available to testify, or would have done so." Appendix C, pg. 14.
This decision is substantially debatable because Petitioner did
show, previously ■, how Mims and Taylor were available, and both
would have testified at trial had counsel called them to the stand.
Thus, from the face of both affdavits, proves credible evidence
of availability and they were willing to testify; otherwise, they
would not have provided the state court with their affidavits on
behalf of the Petitioner. Further, the Petitioner also sought a
live evidentiary hearing concerning Mims and Taylor affidavit in
question, but the state court declined Petitioner's request. Never­
theless, Petitioner argues that no compentent attorney would have
declined to interview such potentially favorable witnesses when
the witnesses had been clearly identified, and were easily access­
ible and willing to.testify and provide the jury their information
at bar. Cf. Cannedy, Jr. v. Adams, 706 F.3d 1148, 1166 (9th Cir.
27

?n-| ^ \ ("r.nnnspl ' s failure to interview the friend and to call her
as a witness could not be excused as strategic. No reasonable
argument supported the state court's determination that the inmate
suffered no prejudice.")} Nealy v. Cabana, 764 F.2d 1173, 1179-80
(5th Cir. 1985)("The verdict against Nealy rest primarily on the
testimony of Wiley Ewing, Davis's confessed killer, and is only
weakly supported by other evidence. Such a verdict is more likely
to have been affected by errors than one with overwhelming record
support."); & Rompilla v. Beard, 545 U.S. 374, 125 S.Ct. 2456,
2458 ("[Petitioner's] lawyer is bound to make reasonable efforts
to obtain and review material that Counsel knows the prosecution
will probabily rely on as evidence [coming from K.H.'s testi­
mony ]"). Therefore, this Honorable Court must grant certiorari
because Counsel truly deprived the jury with all facts necessary
to make a just decision.
4. Jurist of Reason finds Damond Dean Jr. was available to
explain-.Petitioner1 s OTTO Environmental Systems Work Re­
cords, producing an alibi that Petitioner could not have
been alone with K.H.
Damond Dean, Jr. although he did testify, had Counsel properly
investigated he would have also testified to the following: Mr.
Dean Jr. would have revealed that a week or two after Juneteenth
he was with his father to take his car to the shop to have his
car brakes worked on, and Petitioner was.not alone with K.H. as
she protrayes. Cf. Damond Dean Jr.'s Affidvit, Exhibited in Peti­
tioner's State Habeas; RR4, 98. While Counsel himself stated

the

most devestating statement made in trial was the recording conver28

sat-inn of [Petitioner] telling his son
straight for trial.

! ft

we need to get our stories

See Affidavit of Nigel Redmond, Pg. 3.

Counselors, therefore, ineffective because he had no rebuttal
evidencecto show the jury, due to his failure to properly investi­
gate out the facts of this case. In ringing terms, had Counsel pro­
perly investigated Petitioner's work records, he would have known
how to challenge the Prosecution's "recorded conversation" evi­
dence. Truly, Mr. Dean Jr. would have explained that Petitioner
got off work at 11:00am on the 26th, they were together to get his
car brakes worked on. Taken together, this Honorable Court should
speak out and grant certiorari because Counsel's errors prevented
Petitioner from offering something akin to an alibi: Petitioner
could not have been in the house alone with K.H. at all, much less
one-hour-and-a-haIf as K.H. relied to the jury. Cf. Lindstadt v.
Keane, 239 F.3d 191, 200-01 (2nd Cir. 2001)("Counsel s errors pre­
vented Lindstadt from offering something akin to an alibi: Lind­
stadt was not living with his daughter in December 1985.); Bryant
v. Scott, 28 F.3d:1411

1418 (5th Cir. 1994)(holding that a failure

to adequately investigate alibi witnesses constitutes ineffective
counsel); Nealy v. Cabana, 764 F.2d 1173, 1177-78 (5th Cir. 1985)
(same); Montgomery v. Peterson

846 F.2d 407 (7th Cir. 1988)(Co un­

sel's failure to investigate a store receipt was a serious error
in professional judgment and was not related in any way to trial
tactics or strategy."); & Brown v. Myers, 137 F.3d 1154

1156-57

(9th Cir. 1998)(taking it as given that a failure to adequately in­
vestigate alibi claim or witness constitutes ineffective counsel).
29

^BpnnnnnkU_im^Ls±... finds that there is a reasonable probabil­
ity the outcome would have been different, had Counsel introduced testimonial evidence to corroborate Petitioner's
defensive theory.
Taken together, there is a reasonable probability the outcome
would have been different

had Counsel called Taylor and Mims to

the witness stand to impeach K.H.'s testimony; and further, place
in Petitioner's work records akin to an alibi Petitioner could
not have been alone with K.H. In comparison to the federal author­
ity, reasonable jurist finds the lower courts decision substan-^r.
tially debatable. Because Counsel render ineffective assistance
where an investigation would have disclosed information bolster­
ing his client's credibility and information "indicat[.ing] that,
given the layout of the home the alleged sexual assault could not
have taken place, as claimed by K.H. Cf. Richter v. Hickman, 578
F.3d 944, 957 (9th Cir. 2009)(This Court has repeatedly held that
a lawyer who fails adequately to investigate and introduce evidence
that demonstrates his client's factual innocence, or that raised
sufficient doubt as to that question to undermine confidence in
the verdict."); Cannedy, Jr. v. Adams, 706 F.3d 1148

1166 (9th

Cir. 2013)(Petitioner's claim therefore meets the Strickland stan­
dard for ineffective assistance of counsel, and his petition for
[Certiorari] must be granted."); Dugas v. Coplan, 428 F.3d 317,
328-34 (1st Cir. 2005)(Counsel's failure to consult arson expert
as part of his investigation into arson charge against Dugas con­
stitutes ineffective assistance); Nealy v. Cabana, 764 F.2d 1173,
1174 (5th Cir. 1985)(Because the missing evidence might have
30

trf-fecLed Llie jury's appiaisel wf—the truthfulness o

the state's

witness and its evaluation of the relative credibility:of the con­
flicting;

witnesses, [Petitioner] has stated a claim for ineffec-

tive assistance of counsel); Lindstadt v. Keane_jl 23_9 F.3d 191 (2nd
Cir. 2001)(Failure to request study relied on by Prosecution's expert

amounted to ineffective assistance); Williams v. Washington,

59 F.3d 673

679-82 (7th Cir. 1995)(Counsel's failure to investi­

gate was held to ineffective counsel where an investigation would
have disclosed information bolstering his client's credibility and
information ' indicating] that

given the layout of the home...

the alleged assault could not have taken place as claimed.); &
Williams v. Taylor, 529 U.S. 363, 120 S.Ct. 1495, 1523 (2000)(holding that a failure to investigate and present mitigating evidence
during sentencing hearing constituted ineffective assistance, even
when

doing so would have admitted some unfavorable evidence).

Truly, because the lower courts did not hold their respect to this
Honorable Court's spoken word and understanding of the rules of
law, this Honorable Court should grant certiorari to hold Counsel
ineffective

as being a violation of Strickland.

31

2.
«

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Damond
Date:

32

